                                Office of Inspector General
                               Corporation for National and
                                        Community Service




      AGREED-UPONPROCEDURES  REVIEWOF
    CORPORATIONFOR NATIONALAND COMMUNITY
        SERVICEGRANTAWARDED   TO THE
     HADDOCK AMERICORPS  CADETPROGRAM
         BY THE GEORGIA COMMISSION
        FOR SERVICEAND VOLUNTEERISM

                        NUMBER
               OIG REPORT      05-22
                    JULY
                       14,2005



                                                Corporation for              P

                                                NATIONAL 6l
                                                COMMUNITY
                                                SERVICE-




                        Prepared by:

               COTTON & COMPANY LLP
            333 North Fairfax Street, Suite 401
                Alexandria, Virginia 22314




This report was issued to Corporation management on July 14, 2005. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report's findings and recommendations no later
than January 14, 2006, and complete its corrective actions by July 14, 2006.
Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                                 Office of Inspector General
                       Corporation for National and Community Service
                                     Audit Report 05-22

    Agreed-Upon Procedures Review of Corporation for National and Community Service
                 Grant Awarded to Haddock AmeriCorps Cadet Program
                by the Georgia Commission for Service and Volunteerism

OIG Summary
The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Cotton & Company LLP (Cotton) to perform an agreed-upon procedures
review of AmeriCorps Grant OOASFGAO 112601 awarded to the Haddock AmeriCorps Cadet
Program (Haddock) by the Georgia Commission for Service and Volunteerism (Commission).
The AmeriCorps grant is an annual award passed through State commissions to eligible
subrecipients (State and local governments and certain nonprofits) that recruit and select
volunteers who receive stipends and earn education awards following the completion of required
service hours. The Corporation administers education awards through a database of all members
that is updated by each commission and reported to the Corporation's National Service Trust.
Members submit requests to the Trust to redeem their awards which are paid directly to higher
education institutions or lenders of members' outstanding education loans.

The Commission awarded a $134,886 subgrant to Haddock on August 30, 2000. The grant
budget stipulated subrecipient matching of $93,635 and total program costs of $228,521.
Haddock received $124,350 in Corporation funds from the Commission for Program Year 2000-
2001 purportedly as reimbursement for incurred costs claimed in its Periodic Expense Reports.

Of $124,350 in Federal share costs claimed by Haddock, the auditors questioned $121,476.
Costs questioned are those for which documentation shows that recorded costs were incurred in
violation of laws, regulations or specific award conditions. The auditors also questioned $40,950
in education awards paid to Haddock members who did not meet award eligibility requirements.

The Commission agreed with the findings resulting from this review. Haddock was
unresponsive to the OIG's draft report, and the Commission intends to seek a resolution of this
matter directly with Haddock.
We reviewed Cotton's report and related audit documentation and performed other procedures as
we deemed appropriate in the circumstances to provide reasonable assurance that the review was
performed in accordance with generally accepted government auditing standards for attestation
engagements. The review was not intended to enable us to express, and we do not express, an
opinion on the subgrantee's internal controls or a conclusion on its compliance with laws and
regulations. Cotton is responsible for the attached report dated April 6, 2005, and the
conclusions expressed therein.

The Office of Inspector General provided officials of the Commission and the Corporation with a
draft of this report for their review and comment. Their responses are included as Appendices A
and B, respectively.
                                                        CONTENTS

Section                                                                                                                       Page
Executive Summary ...............................................................................................              1
Agreed-Upon Procedures Scope.. ...............................................................................                 2
Background ...........................................................................................................         2
Exit Conference.. ..................................................................................................           3
Independent Accountants' Report on Applying Agreed-Upon Procedures ...............................                             4
Exhibit A: Schedule of Grant Expenditures.. ...............................................................................    6

Appendices
A: Commission's Response to Draft Agreed-Upon Procedures Report
B: Corporation's Response to Draft Agreed-Upon Procedures Report
                                       EXECUTIVE SUMMARY

Cotton & Company LLP was contracted by the Office of Inspector General (OIG), Corporation for
National and Community Service (Corporation), to apply agreed-upon procedures to the schedule of grant
expenditures for the Haddock AmeriCorps Cadet Program (Haddock) for Program Year (PY) 2000-2001.

Haddock claimed total program costs of $204,113, including a Federal share of $124,350 (which was also
the amount paid to Haddock) and matching costs of $79,763. Haddock's financial records detailed
$261,265 of total program costs. We applied the agreed-upon procedures to these costs to assist the OIG
in determining allowability and allocability.

As a result of applying our procedures, we question claimed Federal share costs of $12 1,476 (see the
following table). Costs questioned are those: for which documentation shows that recorded costs were
illcurred in violation of laws, regulations, or specific award conditions; that require interpretation of
allowability by the Corporation; or that require additional documentation to substantiate that the cost was
incurred and is allowable.

Grant participants who successfully complete terms of service under AmeriCorps grants are eligible for
education awards from the National Service Trust. These award amounts are not funded by Corporation
grants and thus are not included in claimed costs. However, as part of our agreed-upon procedures, we
determined the effect of our findings on education award eligibility. Using the same criteria described
above, we questioned education awards of $40,950 (see the following table).

Net questioned costs and education award costs are summarized below. Although some costs and
education awards had more than one reason to be questioned, we questioned these amounts only once.

                                                                                          Education
     Questioned for                                                         Costs          Awards
     Unallowable Unemployment Insurance                                      2,422
     Missing Proof of CitizenshipILegal Residency                            9,304           $ 8,441
     No High School Diplomas                                                                  9,450
     Minimum Service Hours Not Supported                                                     13,609
     Rackmound Checks Not Conducted
          '2
                                                                            58,878            9,450
     Tnadeauate
     ---- -     Evidence of Member Service                                  14.203
     Salary Costs Not Supported by Adequate Payroll Records                 26,150
     Unsupported Operations and Other Member Support Costs                  10,585
     Recorded Costs Exceeding Claimed Amounts                                 (66)
     Net Questioned

Details of questioned costs and education awards are included in the Independent Accountants' Report on
Applying Agreed-Upon Procedures. Exceptions are detailed in Exhibit A.
                              AGREED-UPON PROCEDURES SCOPE

Our engagement to apply agreed-upon procedures to the schedule of grant expenditures covered financial
transactions and allowable program costs for the subgrant awarded to Haddock by the Georgia
Coinmission for Service and Volunteerism (Commission) under its AmeriCorps Grant No.
OOASFGAO 112601.

Our objective was solely to assist the OIG in evaluating claimed costs to determine if Haddock's
financial reports represented valid program costs that were adequately documented by supporting
evidence and allowable in accordance with grant award terms and conditions.

                                           BACKGROUND

The Commission received Corporation funding under Grant No. OOASFGAO112601 for the AmeriCorps
State program. The AmeriCorps grant is an annual award passed through State commissions to eligible
subrecipients (State and local governments and certain nonprofits) that recruit and select volunteers who
then receive stipends and earn education awards. The Corporation administers education awards through
a database of all members that is updated by each commission and reported to the Corporation's National
Service Trust. Members then submit requests to the Trust to redeem their awards, which are paid directly
to higher education institutions or lenders of members' outstanding education loans.

The Commission awarded a $134,886 subgrant to Haddock on August 30,2000. The grant budget
stipulated subrecipient matching of $93,635 and total program costs of $228,521. Haddock received
$124,350 in Corporation funds from the Commission for PY 2000-2001 purportedly as reimbursement for
incurred costs claimed in its Periodic Expense Reports (PERs). In October 2001, the Commission
attempted to perform a financial monitoring site visit at Haddock as a means of verifying support for
claimed costs, and found that financial records it requested from Haddock were not available. Haddock
later submitted this information to the Commission. The Commission found that:

                Almost all of the documents provided were photocopies, some illegible.

                Many receipts were "generic" and did not identify the relationship of the expenditure to a
                specific program activity.

                In-kind-contribution documentation did not include invoices or independent verification
                of the value of the services provided.

                Haddock did not provide recent financial statements, policies and procedures manuals,
                and insurance coverage information that was requested by the Commission.

On November 27,2002, the Commission referred the matter to the OIG, which performed an
investigation and issued an information report on May 27,2003 (OIG File Number 03-009). This report
found that Haddock :

                Claimed non-program-related expenditures as allowable costs;
                Could not provide verifiable documentation for some program expenditures;
                Utilized AmeriCorps members to perform work and services outside the scope of the
                grant.
The OIG obtained Haddock's program and financial records during its investigation. We tested these
documents in performing our procedures. We contacted Haddocks's program director to determine if he
could provide additional information to support program costs. He stated that all records had been given
to the OIG during its investigation, and he did not respond to our inquiries on specific costs claimed.

                                        EXIT CONFERENCE

We conducted an exit conference with Commission and Corporation representatives on May 26, 2005.
In addition, we provided a draft copy of this report to Haddock, the Commission and the Corporation for
comment. Detailed schedules supporting information in this report were provided to the Commission and
Corporation to assist in resolving the findings. Haddock declined to respond to the draft report. The
Commission and Corporation responses, dated June 7,2005, and June 10,2005, respectively, are included
as appendixes A and B to this report. The Commission agreed with the report findings. The Corporation
stated that due to the limited timeframe for response, it has not thoroughly reviewed the report.
                                                                 auditors * advrsori
 3 4 3 hr*irr:{I a w i b \ 4 i h l ~ r* hiiiii 401   * A I ~ ~ A ~ VIRGINIA A , * 704 $?6,0?(1I * i 2 \
                                                                   Y ~ R ~ Y?314                          'W&tiW'OL)41   * \it.\%
                                                                                                                                \ ol"r(v,( I I < t n i




April 6, 2005


Office of Inspector General
Corporation for National and Community Service


We have performed the procedures described below, which were agreed to by the Office of Inspector
General (OIG) of the Corporation for National and Community Service, solely to assist the OIG with
respect to evaluating costs claimed by the Haddock AmeriCorps Cadet Program (Haddock ) for Program
Year (PY) 2000-200 1, as set forth in the accompanying Schedule of Grant Expenditures. Haddock was
responsible for maintaining records of grant expenditures.

This agreed-upon procedures engagement was conducted in accordance with attestation standards
established by the American Institute of Certified Public Accountants and standards applicable to
attestation engagements contained in Government Auditing Standards issued by the Comptroller General
of the United States. The sufficiency of these procedures is solely the responsibility of the party specified
in this report. Consequently, we make no representation regarding the sufficiency of the procedures for
which this report has been requested or for any other purpose.

The procedures and associated findings are as follows:

1.         Compare amounts claimed as program expenditures in Periodic Expenditures Reports (PERs) to
           amounts recorded as expenditures in Haddock's accounting records.

           We noted a number of discrepancies, as detailed in Exhibit A.

2.         Obtain documentation for program activities in support of claimed costs in the PERs and compare
           to amounts reported. Documentation reviewed included records supporting member eligibility.

           We questioned $121,476, or 97.6 percent, of the $124,350 Federal share of Haddock's claimed
           costs as unallowable or unsupported. We also questioned unallowable education awards of
           $40,950.

We were not engaged to and did not conduct an audit, the objective of which would be the expression of
an opinion on the schedule of grant expenditures set forth in the accompanying exhibit.
This report is intended solely for the information and use of the Corporation, the Georgia Commission for
Service and Volunteerism, and Haddock, and is not intended to be and should not be used by anyone
other than these specific parties.

              LLP
COTTON& COMPANY



Alan Rosenthal, CPA
Partner
                         HADDOCK AMERICORPSCADETPROGRAM
                           SCHEDULEOF GRANTEXPENDITURES
                              FOR NATIONAL
                     CORPORATION          AND COMMUNITY
                                                      SERVICE


                                                   Claimed       Questioned
                                                                  -              Questioned
                                   Approved        Federal          Federal      Education
Budget Category                     Budget          Costs            Costs        Awards        Notes
A. Member Support                    $91,813        $84,741         $84,741        $40,950        1
B. Other Member Support                3,268          3,065              868
C. Staff                              20,602         20,136          20,136
D. Operations                         12,463         10,394           9,7 17
F. Administration                      6,740          6,014            6.014
Total                              $134.886        $124.350       $121.476         $40.950

1.      Haddock claimed member support costs of $99,521, including $84,741 for Corporation
        reimbursement and matching costs of $14,780. We questioned Federal costs claimed of $84,74 1
        and education awards of $40,950, as follows:

                                                                               Education
                                                              Category A        Awards        Notes
Total Member Support Costs Claimed                            $99,52 1
Less:
   Living Allowances Claimed Exceeding Costs Recorded          14,714            -----          a
   Unallowable Unemployment Insurance                           2,422            -----          b
   Missing Proof of Citizenship                                 9,304           $8,44 1         c
   No High School Diplomas                                       -----           9,450          d
   Minimum Service Hours Not Supported                           -----          13,609          e
   Background Checks Not Conducted                             58,878            9.450          f
   Inadequate Evidence of Member Service                       14,203                           g
Total Allowable Program Costs

Questioned Federal Costs Claimed                              $84.74 1

Questioned Education Awards                                                    $40.950

        a.     Haddock's financial records detailed $68,182 of member living allowances incurred,
               $14,7 14 less than the $82,896 total of member allowance costs claimed. We were unable
               to identify and reconcile the difference between claimed costs and those per Haddock's
               financial records. We questioned $14,714 in accordance with Office of Management and
               Budget (OMB) Circular A-122, Attachment A, Section A.2 (g), Factors Affecting
               Allowability of Costs, which requires that costs be adequately documented.
Haddock claimed unallowable member Federal unemployment taxes of $559 and State
unemployment insurance taxes of $1,863. AmeriCorps Provisions, Section C(l l)(d)(iv),
Living Allowances, Other In-Sewice BeneJits and Taxes (2000 ed.), states that grantees
cannot charge unemployment insurance taxes to the grant unless mandated by State law.
The Georgia State Department of Labor determined that living allowance payments to
AmeriCorps participants are not subject to unemployment insurance taxes. We therefore
questioned $2,422 ($559 + $1,863) as unallowable.

Haddock did not maintain documentation to support the eligibility of two members.
AmeriCorps Provisions, Section B(6), Eligibility, Recruitment, and Selection, requires
that a member be a U.S. citizen, U.S. national, or lawful permanent resident alien of the
U.S. Files for two members contained no evidence that Haddock obtained
documentation of citizenship or legal status. We therefore questioned living allowances
of $9,304 and education awards of $8,441.

Haddock member files for four members did not include copies of high school diplomas
or equivalent records.

AmeriCorps Provisions, Section A(i)(iv), Definitions, Member, states that a member
must have or agree to obtain a high school diploma or equivalent. We questioned
education awards of $9,450 for these members (total education awards of $1 7,891 less
$8,441 questioned in Note c, above).

Member in-service hours reported to the Corporation did not always correspond to time
sheets. Files for three members were missing time sheets, and hours recorded on time
sheets for four other members were insufficient to earn the education awards they
received.

AmeriCorps Provisions, Section B(S)(a), Terms of Sewice, states that participants must
complete 1,700 hours of service to be eligible for a full education award and 900 hours of
service to be eligible for a part-time award.

We therefore questioned member education awards of $13,609 ($31,500 less $17,891
questioned in Notes c and d, above).

Haddock's ten member files did not contain documentation to show that it conducted
required background checks for its members. AmeriCorps Provisions, Section B(6),
Eligibility, Recruitment, and Selection, requires programs with members who have
substantial, direct contact with children to conduct criminal record checks on these
members. We therefore questioned $58,878 in living allowances ($68,182 less $9,304
questioned in Note c, above) and $9,450 in education awards ($40,950 less $3 1,500
questioned in Notes c, d, and e, above).

Member time sheets did not adequately support member service hours. Hours were
entered on copies of blank time sheets that appeared to have been signed in advance by
the members Also, based on handwriting similarities it appeared that all time sheet
hours may have been entered by the same person. In addition, in interviews of several
members conducted by an OIG investigator, some indicated that they worked on
unrelated activities for the program director, such as helping build a daycare center,
working in the director's church summer program, and putting up Christmas lights at the
director's house. Member time sheets for periods corresponding to these activities
indicated that members were working on the AmeriCorps program. We were unable to
       verify that the members had actually performed eligible services within the provisions of
       the grant.

       AmeriCorps Provisions, Section C(2 l)(c)(ii) Time and Attendance Records, requires that:

                The Grantee must keep time and attendance records on all AmeriCorps
                Members in order to document their eligibility for in-service and post-
                service benefits. Time and attendance records must be signed both by
                the Member and by an individual with oversight responsibilities for the
                Member.

        We therefore questioned member support costs of $14,203 ($99,521 less $85,3 18
        questioned in Notes a, b, c, and f, above). We did not question education awards
        questioned previously in Notes c, d, e, and f, above.

h.      Haddock claimed member workers' compensation insurance costs of $1,462 and health
        insurance costs of $7,425 as Federal costs. Haddock did not, however, provide
        supporting documentation, such as invoices or receipts. AmeriCorps Provisions, Section
        C( 21)(b), Source Documentation, requires that the "Grantee must maintain adequate
        supporting documents for its expenditures" We questioned these costs in Note g, above;
        accordingly, they are not questioned here.

Haddock claimed other member support costs of $7,595, including Federal costs of $3,065 and
matching costs of $4,530. Its financial records show $1 1,058 of other incurred member support
costs. We attempted to test total incurred costs to supporting documentation and determined that
$7,779 was unsupported for the following reasons:

        Haddock did not provide original invoices or receipts to support $1,547 of other member
        support costs claimed.

        Training costs of $3,565 were not supported by training provider invoices, member sign-
        in sheets, or any other evidence to show that the training had actually been provided to
        members.

        Supporting documentation for $1,050 of travel costs claimed did not include detail on the
        purpose of the trip, dates, and destinations; lacked supporting receipts; and did not always
        identify the traveler.

        Receipts and other supporting documentation for food and meal purchases of $652 did
        not include enough information to indicate that these costs were allocable to, and
        necessary for, program operations.

        Haddock did not provide documentation to support the estimated value of $965 of in-kind
        amounts claimed for conference room and van rental charges.

AmeriCorps Provisions, Section C( 21)(b), Source Documentation, requires that the:

        Grantee must maintain adequate supporting documents for its expenditures
        (federal and non-federal) and in-kind contributions made under this Grant. Costs
        must be shown in books or records (e.g., a disbursement ledger or journal) and
        must be supported by a source document, such as a receipt, travel voucher,
        invoice, bill, in-kind voucher or similar document.
                                             8
     We questioned Federal costs claimed of $868, as follows:

                                                                       Category B
              Total Program Costs Incurred                              $1 1,058
              Less: Unsupported Costs                                     7,779
              Total Allowable Program Costs                              $3,279
              Federal Funding Percentages                                   67%
              Total Allowable Federal Costs (Total Allowable
                 Program Costs x Federal Funding Percentage)               $2,197
              Federal Costs Claimed                                        $3,065

              Federal Costs Questioned                                       $868

3.   Haddock claimed staff costs (Category C) of $54,032 (Federal costs of $20,136 and matching
     costs of $33,896) for the salary and benefits of the program director and administration costs
     (Category F) of $9,369 (Federal costs of $6,014 and matching costs of $3,355) for the
     administrative assistant's salary and benefits. We noted the following:

             Salaries were not supported by payroll registers or other payroll reports. The supporting
             documentation for salary and benefit costs consisted of Internal Revenue Service 1099
             forms (Miscellaneous Income), copies of checks, copies of bank withdrawal forms, and a
             church report indicating the program director's salary as the church pastor.

             Time sheets provided to support the AmeriCorps activities of the program director and
             administrative assistant were not signed, did not detail AmeriCorps hours worked by
             activity, and did not include hours worked on other programs or activities.

             We could identify no apparent correlation or relationship between the number of time
             sheet hours recorded by the program director and administrative assistant and the amount
             of their claimed salaries.

     OMB Circular A-1 22, Attachment B, Paragraph 8(m), Conzpensationforpersonal service,
     Support of salaries and wages, states that:

             (1) Charges to awards for salaries and wages, whether treated as direct costs or
             indirect costs, will be based on documented payrolls approved by a responsible
             official(s) of the organization. The distribution of salaries and wages to awards
             must be supported by personnel activity reports, as prescribed in subparagraph
             (2). ..

             (2) Reports reflecting the distribution of activity of each employee must be
             maintained for all staff members (professionals and nonprofessionals) whose
             compensation is charged, in whole or in part, directly to awards. .. .

                     (a) The reports must reflect an after-the-fact determination of the actual
                     activity of each employee. Budget estimates (i.e., estimates determined
                     before the services are performed) do not qualify as support for charges to
                     awards.
                    (b) Each report must account for the total activity for which employees are
                    compensated and which is required in fulfillment of their obligations to the
                    organization.

                    (c) The reports must be signed by the individual employee, or by a
                    responsible supervisory official having first hand knowledge of the
                    activities performed by the employee, that the distribution of activity
                    represents a reasonable estimate of the actual work performed by the
                    employee during the periods covered by the reports.

                     (d) The reports must be prepared at least monthly and must coincide with
                     one or more pay periods.

     We therefore questioned staff costs of $20,136 and administration costs of $6,014 as unsupported.

4.   Haddock claimed operations costs (Category D) of $33,598, including Federal costs of $10,394
     and matching costs of $23,204. Its financial records detailed $94,893 of operations costs
     incurred. We tested documentation provided by Haddock to support incurred costs and
     determined that, of these costs, $93,883 was unsupported for the following reasons:

             Haddock did not provide original invoices or receipts to support $17,883 of claimed
             operations costs.

             Supporting documentation for $2,133 of travel costs claimed did not include detail on the
             purpose of the trip, dates, and destinations; lacked receipts; and did not always identify
             the traveler.

             Receipts and other supporting documentation for food and meal purchases of $1,40 1 did
             not include enough information to indicate that these costs were allocable to, and
             necessary for, program operations.

             Receipts, vendor invoices, and other records to support $7,382 claimed for copier leases,
             computer acquisitions, cleaning, kitchen supplies, and office supplies did not support the
             allocability of these costs to the program. Haddock did not provide documentation
             indicating how these purchases were used in the program. It was noted that the
             approved grant budget included funding for a computer and cleaning and office supplies.
             Of the $7,382 claimed $2,976 was for the copier lease.

             HACP did not provide documentation to support the estimated value of $65,084 for in-
             kind amounts claimed for building space usage, equipment, utilities, photocopying, and
             painting services.

     AmeriCorps Provisions, Section C( 2 l)(b), Source Documentation, requires that the:

             Grantee must maintain adequate supporting documents for its expenditures
             (federal and non-federal) and in-kind contributions made under this Grant. Costs
             must be shown in books or records (e.g., a disbursement ledger orjournal) and
             must be supported by a source document, such as a receipt, travel voucher,
             invoice, bill, in-kind voucher or similar document.
We questioned Federal costs claimed of $9,717, as follows:

                                                             Category D
         Total Program Costs Incurred                         $94,893
         Less: ~n&pportedCosts                                 93,883
         Total Allowable Program Costs                         $1,010
         Federal Funding Percentages                             67%
         Total Allowable Federal Costs (Total Allowable
            Program Costs x Federal Funding Percentage)         $677
         Federal Costs Claimed                                $10.394

         Federal Costs Questioned                              $9.717
        DCR                        Fax:404-327-6848                    Jun   8   zuus 11 :su              r.UL



                                      GEORGLA DEPARTMENT OF
                           COMMUNITY AFFAIRS
                                                                                                               Sonny Perdue




                                                                             R~EZ~D
                                                                                                               GOVERNOR
                                                  June 7,2005


           Ms.Carol Bates
           Acting Inspector General
           Offlce of the Inspector General
           Corporation for National and Community Service
           1201 New York Ave., NW                                                        CFFICE OF THE
                                                                                      \ w s P E ~ ~G~F~SRA L
           Washington, D.C. 20526

           Dear Ms. Bates:

                  We have received the Draft Report on the results of our agreed-upon
           procedures review of AmeriCorps Grant 00ASFGA0112601 which was awarded by
           the Georgia Commission to the Haddock AmeriCorps Program, We appreciated the
           opportunity to review in person here at our office the Draft Report on May 26, 2006,
           with Mr. Ron Huritz of your office and Ms. Ellen Reed, CPA,o f Cotton and
            Company,LLC.
                  After the meeting with Mr. Huritz and the excellent review of findings by Ms.
           Reed, we feel confident that every effort has been made to notify the former sub-
           grantee, to acquire additional data which would clarify questioned costs, and t o
           thoroughly review the entire body of documentation regarding this grant. We also
           appreciate Mr. Huritz's candor with regards t o the next steps in the process of
           resolving this case. We therefore agree with the findings of the Draft R e p a ~ t .

                   I look forward to continuing work with your office as this csse moves forward.
            to. Please feel free to contact me at 404-327-6544if you need additional information.




                                                            James P. Marshal. Jr.
                                                            Executive Director
                                                            Georgia Commission for Service and
                                                            Volunteerism
            CC:    Peg &senberry
                   Ran Huritz
                   Terry Ball



                     60 Executive Park South, NX. Atlanta, Georgia 30329-2231 (404) 679-4940
 OPPO~IJN~ @
EOUAL HOUSING
                                                www.dca.state.ga.ua                                              @~ e c y c k dPOP~T
                                            An Equal Opporruniry Employer


                                                                  06/08/2005 WED 10:49            [TX/RX NO 99521
                                            CORPORATION
                                            FOR NATIONAL
                                            -AND     ---
                                            COMMUNITY




         To :          Carol Bates, Acting Inspycpr General

         From:
                      M.zq6e*@fl
                               /
                                               irector o G        Management
                           f
                                      !                 i/    I


         Cc :          h c b e w ~ l e i n eActing
                                            ,      Chief Financki9fficer
                       Rosie Mauk, Director of AmeriCorps
                       Tory Willson, Audit Resolution Coordinator
                       James P. Marshall, Executive Director, Georgia Commission

         Date:         June 10,2005

         Subject:      Response to OIG Draft Audit Report on Grant 00ASFGA0112601


         We have reviewed the draft audit report on Grant 00ASFGA0112601 awarded by the
         Georgia Commission for Service and Volunteerism to the Haddock AmeriCorps
         program. Due to the limited timeframe for response, we have not thoroughly reviewed
         the report nor begun the audit resolution process with the Commission. However, the
         Commission response notes that they agree with the findings in the report.

         We also want to thank the Commission for bringing this issue to the Corporation and
         working cooperatively with us. We will continue to work closely with the Commission
         as we move forward with audit resolution.




1201 New York Ave., N.W. Washington, DC 20525 202-606-5000 ww.nationalservice.org         r\   proud part of

                                   Senior Corps AmeriCorps Learn and Serve America
                                                                                          uSP;EE
                                                                                          Freedom Corps
                                                                                          The Pres~denrbCall to S e ~ c e
